    DEPARTMENT OF HOMELAND SECURITY

      Ofﬁce of Inspector General


      A Review of the Secure Electronic Network
        for Travelers Rapid Inspection Program




Notice: The Department of Homeland Security, Ofﬁce of Counsel to the Inspector General,
has reviewed this report and excised information according to the Freedom of Information
Act, 5 U.S.C. Section 552, as amended.




Ofﬁce of Inspections, Evaluations,
       & Special Reviews
OIG-04-14               April 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface


The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein, if any, have been developed to the best knowledge available to the
OIG, and have been discussed in draft with those responsible for implementation. It is my hope
that this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                      Clark Kent Ervin
                                      Inspector General
                                                                                                                           Contents

  Introduction ......................................................................................................................................3

  Results in Brief ................................................................................................................................3

  Background ......................................................................................................................................4

  Purpose, Scope, and Methodology...................................................................................................8

  Finding .......................................................................................................................................... 10

       Expedited Border Crossings .................................................................................................. 10

       Low Risk Travelers ................................................................................................................ 11

       Continued Eligibility of SENTRI Enrollees ........................................................................... 20

       SENTRI Program Management and Oversight ...................................................................... 27

       Future SENTRI Expansion ..................................................................................................... 30


Appendices

  Appendix A:                 SENTRI Background Checks and System Queries ........................................ 33
  Appendix B:                 Management Comments ................................................................................. 33
  Appendix C:                 OIG Evaluation of Management Comments…………………………………41
  Appendix D:                 Recommendations ........................................................................................... 48
  Appendix E:                 Major Contributors to this Report ................................................................... 49
  Appendix F:                 Report Distribution ......................................................................................... 50


Abbreviations

  AFIS – Automated Finger Print System
  CBP – Customs and Border Protection
  CIS – Central Index System
  CLASS – Consular Lookout and Support System



             A Review of the Secure Electronic Network for Travelers Rapid Inspection Program                                                      Page 1
Contents

   CSC – Computer Sciences Corporation
   DACS – Deportable Alien Control System
   DCL – Dedicated Commuter Lanes
   DHS – Department of Homeland Security
   FBI – Federal Bureau of Investigation
   GES – Global Enrollment System
   IBIS – Interagency Border Inspection System
   INS – Immigration and Naturalization Service
   NAILS – National Automated Immigration Lookout System
   NCIC – National Crime Information Center
   NLETS – National Law Enforcement Telecommunications System
   OIG – Ofﬁce of Inspector General
   POE – Port of Entry
   PortPASS – Port Passenger Accelerated Service System
   SENTRI – Secure Electronic Network for Travelers Rapid Inspection
   TECS – Treasury Enforcement Communications System
   USCS – United States Customs Service
   US-VISIT – United States Visitor and Immigrant Status Indicator Technology
   WIN/AFIS – Western Identiﬁcation Network/Automated Finger Print System




Page 2                  A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
OIG
Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                         The Secure Electronic Network for Travelers Rapid Inspection (SENTRI)
                         program permits pre-enrolled travelers to enter the United States by personal
                         vehicle from Mexico with minimal inspection by Customs and Border Protection
                         (CBP) ofﬁcers. Such reduced border inspection facilitates a more rapid entry
                         into the United States. The SENTRI program is open to both United States
                         citizens and non-citizens; participation is voluntary, fee based, and only for non-
                         commercial vehicles. SENTRI is available at three southern land ports of entry
                         (POE). CBP ofﬁcers must assess the safety and security risks associated with
                         travelers and their eligibility to enter the United States before the travelers are
                         enrolled. CBP, within the Border and Transportation Security Directorate of the
                         Department of Homeland Security (DHS), is responsible for SENTRI program
                         operations.

                         The OIG determined that this report contained highly sensitive information that
                         must be protected from general public disclosure. Therefore, this report has been
                         redacted, removing the sensitive information.


    Results in Brief
                         Program operations were adequate to ensure border security at all three SENTRI
                         land POE. We concluded that the SENTRI program is generally accomplishing
                         the two basic objectives for which it was established: to accelerate the inspection
                         of pre-enrolled low-risk travelers at designated southern United States land POEs;
                         and to maintain border integrity, security, and law enforcement responsibilities.

                         However, certain program deﬁciencies must be corrected to enhance the
                         program’s overall effectiveness. Speciﬁcally, we have several concerns with the
                         SENTRI program that involve program management and oversight at the national
                         level. These concerns begin with the enrollment process and include the lack
                         of uniform thresholds for criminal offenses, ﬁnancial solvency, and residency,
                         as well as apparent inconsistencies with application approvals and denials.
                         Problems exist in resolving derogatory information from the background checks,


            A Review of the Secure Electronic Network for Travelers Rapid Inspection Program           Page 3
                               and with the separation of CBP ofﬁcer duties in the enrollment process. We
                               noted problems with updating SENTRI system records after initial enrollment,
                               documenting violations, administering penalties, establishing criteria for the
                               frequency of random compliance inspections, and documenting the results of
                               compliance inspections. Taken as a whole, our concerns indicate weak program
                               management that could jeopardize the program’s integrity and border security.

                               Moreover, a senior manager of the United States Visitor and Immigrant Status
                               Indicator Technology (US-VISIT) program told us that SENTRI might play
                               a cornerstone role in US-VISIT. Although SENTRI’s precise relationship to
                               US-VISIT has not been settled, the data on pre-screened travelers contained in
                               SENTRI will be useful to US-VISIT’s operation, and US-VISIT is scheduled
                               to be implemented at the 50 busiest land POEs this year, including the POEs
                               where SENTRI now operates. Consequently, some convergence between the
                               two is foreseeable, and SENTRI should be strengthened in accordance with our
                               recommendations for the additional reason that it may support US-VISIT.

                               We are recommending that CBP establish (1) minimum and objective thresholds
                               for violations, arrests, and convictions to evaluate applicants; (2) establish
                               procedures for resolution of hits generated by background checks; (3) establish
                               minimum thresholds when determining ﬁnancial solvency and residence; (4)
                               establish separation of duties in the enrollment process; (5) perform routine
                               and timely system queries to monitor a participant’s continued eligibility; (6)
                               provide a plan and schedule to achieve lookout system connectivity; (7) document
                               resolution of secondary inspections and establish appropriate compliance check
                               rates; (8) identify and record violations resulting in penalties; (9) develop
                               performance data to evaluate and improve the program’s overall effectiveness and
                               contribution to border security; and (10) ﬁnalize guidance and standard operating
                               procedures to insure uniform program implementation.

Background
                               SENTRI is a land border management program that allows CBP to accelerate
                               the inspection of pre-enrolled travelers at designated southern United States
                               land POEs, while maintaining border integrity, security, and law enforcement
                               responsibilities. The SENTRI program is open to both United States citizens and
                               non-citizens. Participation is voluntary, fee based, and is only for use with non-
                               commercial vehicles. The current enrollment period is two years.1

1
    On February 28, 2003, the enrollment period for the SENTRI program was extended from one to two years.




Page 4                             A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
             To enroll in and use the SENTRI program, applicants must demonstrate that
             they pose low risk to border security and are eligible to enter the United States
             lawfully. The program incorporates: (1) pre-enrollment of the applicant
             that includes an initial interview with CBP ofﬁcers; (2) various agency law
             enforcement database and criminal record background checks; (3) adjudication
             of the application; (4) an inspection of the applicant’s vehicle; and, (5) a ﬁnal
             interview with CBP ofﬁcers.

             The SENTRI program currently operates at three land POEs on the southern
             border: Stanton Street Bridge, El Paso, Texas; Otay Mesa, California; and San
             Ysidro, California. SENTRI enrollees use the SENTRI Dedicated Commuter
             Lanes (DCL) at these POEs to gain expedited entry into the United States.
             Currently, there are three DCLs at the Stanton Street Bridge, one at Otay Mesa,
             and two at San Ysidro. There are two Enrollment Centers, one at the Ysleta POE
             in El Paso, Texas that services the Stanton Street Bridge POE, and another in Otay
             Mesa, California, which services both the Otay Mesa and San Ysidro POEs.

             The SENTRI program involves enrollment of three components: the driver of
             the vehicle, passengers authorized to be in the vehicle, and the vehicle itself.
             Enrollees, both drivers and passengers, are issued Port Passenger Accelerated
             Service System (PortPASS) identiﬁcation cards, and the vehicle is issued a
             transponder that is afﬁxed to the windshield. Only SENTRI enrollees and pre-
             registered vehicles may use SENTRI DCLs.

             A critical component of the SENTRI program is the Global Enrollment System
             (GES). GES is SENTRI’s computer system that contains electronic ﬁles for all
             enrollees. GES supports management of the SENTRI program in determining
             eligibility; processing the applicant; verifying or denying enrollment, and
             performing system administration, including updating records. Information
             contained in GES includes digitized photographs of the driver and all authorized
             passengers, their citizenship and immigration status, and vehicle identiﬁcation
             information.

             (b)(2)High                       r crossings made by all enrollees. (b)(2)High
                                                                                   (b)(2)High


            (b)(2)High
                                             , enrollees are referred to secondary inspection to
             ensure the enrollee’s compliance with SENTRI program rules and regulations. In
             addition, ofﬁcers may place an interdiction or “lookout” message in GES to alert
             the CBP ofﬁcer that the vehicle or any occupant is wanted for various alleged
             violations of law or inadmissibility.




A Review of the Secure Electronic Network for Travelers Rapid Inspection Program                Page 5
                             Originally developed and implemented by Electronic Data Systems (EDS),
                             Computer Sciences Corporation (CSC) is the current CBP contractor supporting
                             GES. GES is a local stand-alone system at each Enrollment Center; there is
                             no link or shared information through GES between the Enrollment Centers,
                             other land POEs, or CBP headquarters. The integration of enrollment systems
                             into a single GES is planned. CBP ofﬁcials said the integration is planned for
                             September 2004.

                             GES provides information to the CBP ofﬁcer in advance of an enrollee’s arrival at
                             the inspection booth. The system automatically identiﬁes the driver, vehicle, and
                             authorized passengers. The SENTRI inspection process consists of: (1) accessing
                             enrollee information, digitized photographs of enrollees, and vehicle identiﬁcation
                             information maintained in the GES; (2) accessing data by enrollee identiﬁcation
                             number when the enrollee slides his/her PortPASS card through a magnetic
                             stripe reader; and (3) a visual comparison, by CBP ofﬁcers, of the vehicle and its
                             passengers against GES displayed data.

                             When the enrollee approaches the border in a SENTRI DCL, the radio frequency
                             of the transponder queries GES. Each transponder has a unique radio signal
                             that correlates to a speciﬁc record in GES. Once identiﬁed, a signal is sent to
                             GES to locate data about the vehicle and its authorized occupants. This data is
                             temporarily stored for later use. As the vehicle continues through the DCL, a
                             second set of sensors is activated and within seconds sends the temporarily stored
                             information to the GES computer monitor in the inspection booth. The CBP
                             ofﬁcer then has all of the required information needed to validate the vehicle
                             and authorized occupants. The following information is displayed on the GES
                             screen: the license number and state issuing the plate; the make, model, color,
                             and identiﬁcation number of the vehicle; and digitized pictures of the approved
                             SENTRI enrollees with their names and citizenship.

                             Simultaneously, automatic digital license plate readers and computers perform
                             queries on the vehicle against law enforcement databases. License plate data is
                             automatically available to the CBP ofﬁcer by viewing the Treasury Enforcement
                             Communication System (TECS)2 computer that is also located in their booth. In
                             addition, the ofﬁcer may manually access TECS to perform name queries.3 This
                             combination of information provides ofﬁcers with updated data concerning the
                             vehicle, driver, and any possible association with criminal activity.

2
  CBP headquarters told us that, in the future, TECS would be referred to as the Interagency Border Inspection System (IBIS). We choose
to use the term “TECS” throughout this report because SENTRI ﬁeld ofﬁcials currently use this term at land POEs.
3
  Automatic digital license plate readers exist on all travel lanes, not just the DCLs, and are linked to TECS, not to SENTRI’s GES.


Page 6                            A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                             Upon reaching the booth, the driver of the vehicles stop and slide his or her
                             PortPASS cards through a magnetic stripe card reader. Based on initial program
                             development information, the original intent of the PortPASS card was to access
                             enrollee identiﬁcation data when the card was passed through a magnetic stripe
                             reader. However, in practice, the PortPASS card and the card reader system are
                             not tied to any component of SENTRI’s GES. Once the CBP ofﬁcer visually
                             veriﬁes the occupants of the vehicle against the GES information and reviews
                             applicable admissibility documents, the enrollee and passengers may enter the
                             United States. If CBP ofﬁcers are unable to make positive veriﬁcation of the
                             vehicle or occupants, they may send the vehicle and its occupants to a more
                             intensive, secondary inspection.4

                             To monitor the continued eligibility of an enrollee, the entire SENTRI enrollment
                             database is reviewed in TECS on a 24-hour basis. The purpose of this review is
                             to compare enrollee names against current law enforcement databases to identify
                             criminal activity or immigration violations that have occurred since enrollment.
                             When the review is complete, CBP ofﬁcers manually review the TECS reports
                             and, when warranted, manually place an interdiction in the enrollee’s GES
                             electronic ﬁle so that ofﬁcers have this information available on the GES monitor
                             in the inspection booth. By running the daily TECS review, any new adverse
                             information would be immediately available to ofﬁcers on the GES monitor in
                             the inspection booth. CBP ofﬁcers may then take appropriate actions when the
                             SENTRI traveler approaches the inspection booth.

                             The SENTRI program is fee based. Payment of fees may be made by credit
                             card, personal check, money order, or United States currency.5 There is a $25.00
                             application fee and a $24.00 ﬁngerprint fee collected at the time of the initial
                             interview. Both fees are non-refundable. A ﬁnal system fee of $80.00 is collected
                             at the time of the ﬁnal interview and vehicle inspection. If an enrollee wishes to
                             register more than one vehicle for use in the SENTRI DCL (maximum of four
                             vehicles), or an enrollee wishes to register as a passenger in more than one vehicle
                             (maximum of eight persons per vehicle), an additional fee of $42.00 per vehicle
                             is assessed. The two-year enrollment renewal fee is $105.00. The renewal
                             process is similar to the initial application; however, renewal applications may
                             be submitted by mail and an enrollee interview by CBP ofﬁcers is not required,


4
  During a secondary inspection, the vehicle and its occupants are directed to an area away from SENTRI DCLs and regular lanes where
CBP ofﬁcers may perform a more intensive questioning of the travelers, veriﬁcation of their admissibility documents by querying various
databases, and an inspection of the vehicle.
5
  The Enrollment Center at Ysleta in El Paso, Texas does not accept credit cards.




              A Review of the Secure Electronic Network for Travelers Rapid Inspection Program                                   Page 7
                             unless CBP ofﬁcials deem it necessary. If an enrollee does not renew enrollment,
                             the transponder is deactivated, DCL use is not permitted, and the PortPASS and
                             transponder are recovered by CBP. If a PortPASS card or vehicle transponder is
                             lost, damaged, or stolen, enrollees are charged $25.00 to replace a PortPASS card
                             and $42.00 to replace a vehicle transponder.

                             SENTRI was ﬁrst implemented as a pilot program at the Otay Mesa, California
                             land POE on November 1, 1995. It later became operational at the Stanton Street
                             Bridge land POE in El Paso, Texas in September 1999, and at the land POE in
                             San Ysidro, California during September 2000. For calendar year 2002, both San
                             Ysidro and El Paso ports ranked in the top ﬁve busiest United States land border
                             gateways, processing approximately 29 million northbound personal vehicles
                             in regular lanes and SENTRI DCLs.6 As of December 17, 2003, there were
                             approximately 66,000 enrollees in the SENTRI program; 17,509 in Texas; and,
                             48,357 in California.7 The primary users of SENTRI DCLs were United States
                             citizens (62 percent) and citizens of Mexico (36 percent), and the countries of
                             Japan, Korea, Canada, Spain, China, the United Kingdom, Argentina, and others
                             comprising the remaining 2 percent.

                             Prior to the creation of DHS on March 1, 2003, the Immigration and
                             Naturalization Service (INS) and the United States Customs Service (USCS),
                             through a memorandum of understanding, dated August 11, 1994, shared
                             responsibility for this program. Historically, INS was primarily responsible for
                             program funding, while stafﬁng was a shared responsibility of both services.
                             Now that legacy INS and USCS components have merged into CBP, both will
                             share responsibility for SENTRI program oversight, implementation, funding, and
                             stafﬁng.

Purpose, Scope, and Methodology
                             Our review of the SENTRI program was designed to determine whether program
                             protocols and eligibility criteria have been established and observed in the
                             evaluation and assessment for determining an applicant’s low risk for enrollment.
                             Speciﬁcally, we examined the processes and procedures to prevent and detect
                             fraud, identify mala ﬁde applicants, and interdict violators. The review assessed

6
  U.S. Department of Transportation, Bureau of Transportation Statistics, special tabulation, July 2003. Based on the following primary
data sources: U.S. Department of Treasury, U.S. Customs Service, Ofﬁce of Field Operations, Operations Management Database
(Washington, DC: 2002).
7
  Data provided by the CBP contractor, CSC, for the El Paso, Texas and Otay Mesa, California Enrollment Centers, December 17, 2003.



Page 8                            A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
             the integrity of the SENTRI program and evaluated whether uniform and
             consistent diligence is applied to ensure that only qualiﬁed applicants are enrolled
             in and remain enrolled in the program. We analyzed the following:

                      Documentation pertinent to the SENTRI program, including draft program
                      guidance, a draft directive, draft standard operating procedures (dated
                      August 10, 2003), policy memorandums, Federal Register notices, Internet
                      websites, and various news articles.
                      “Inspection of the Secure Electronic Network for Travelers’ Rapid
                      Inspection,” Report Number 1-2000-019, Inspections Division, Ofﬁce of
                      the Inspector General, United States Department of Justice, June 2000.
                      Code of Federal Regulations Title 8—Aliens and Nationality, Part 103—
                      Powers and Duties; Availability of Records, Part 235—Inspection of
                      Persons Applying for Admission, Part 286—Immigration and User Fee.
                      Land Border Ports of Entry: Vulnerabilities and Inefﬁciencies in the
                      Inspections Process, General Accounting Ofﬁce report, GAO-03-1084R,
                      August 18, 2003.

             We interviewed CBP headquarters ofﬁcials and staff at all SENTRI land POEs
             and Enrollment Centers. We conducted site visits at Otay Mesa and San Ysidro,
             California and El Paso, Texas. We also interviewed CBP’s contractor for
             SENTRI, CSC, and obtained program data contained in GES.

             At each Enrollment Center, we reviewed 300 SENTRI applicant ﬁles in the
             following categories: 90 approved ﬁrst time enrollment ﬁles, 90 enrollment
             renewal ﬁles that had been approved; 45 denied ﬁrst time enrollment ﬁles, 45
             denied enrollment renewal ﬁles, and 30 revocation ﬁles. We reviewed these ﬁles
             to determine content, uniformity, and consistency of documentation requested of
             applicants and reviewed by CBP ofﬁcers to determine an applicant’s risk level and
             continued eligibility.

             Our ﬁeldwork was conducted from November 2003 to January 2004. The review
             was conducted under the authority of the Inspector General Act of 1978, as
             amended, and according to the Quality Standards for Inspections issued by the
             President’s Council on Integrity and Efﬁciency.




A Review of the Secure Electronic Network for Travelers Rapid Inspection Program           Page 9
Findings

       Expedited Border Crossings

                                The SENTRI program has clearly achieved one of it primary objectives–to
                                accelerate the inspection of pre-enrolled low risk travelers at designated southern
                                United States land POEs. Typically, the time an enrollee will spend waiting to
                                cross the border in a DCL from Mexico into the United States, as compared to
                                waiting times experienced by border crossers in regular lanes, is considerably
                                less for three distinct and measurable reasons: enrollees have previously
                                submitted pertinent information about their citizenship or immigration status and
                                admissibility; their status has been veriﬁed and background checks performed
                                to determine a lower risk associated with the enrollees; and, CBP ofﬁcers have
                                access to this critical information at time of entry. However, to the traveler, the
                                attraction of SENTRI is not the small savings of time during examination by CBP
                                ofﬁcers. The greater attraction is the access to comparably less congested trafﬁc
                                lanes reserved for SENTRI participants, which thereby enables them to avoid the
                                frequent travel delays that arise at the POEs.

                                Because CBP ofﬁcers already have considerable information about SENTRI users
                                before they get to the inspection booth, they do not have to spend as much time
                                reviewing documents and asking questions during the inspection. CBP estimates
                                the waiting time for an enrollee using SENTRI DCLs averages about 10, seconds
                                as compared to a waiting time of 30 to 40 seconds in regular lanes. During our
                                site visits to all SENTRI land POEs, we conﬁrmed the same average time savings.

                                From January 1, 2003, to December 12, 2003, approximately 3.5 million vehicles
                                were processed through all SENTRI DCLs.8 To illustrate the impact of a 20-
                                second increase in inspection time, we calculated that CBP would need much
                                more time to inspect the 3.5 million vehicles in regular lanes than it would need
                                to process the same number of vehicles through SENTRI DCLs. If the same
                                number of vehicles were processed through regular inspection lanes, it would take
                                the approximate equivalent of 2.22 additional years to inspect these vehicles.9
                                Although other variables could affect the equation, the reduction of 2.22 years, in



8
    Data provided by the CBP contractor, CSC, December 17, 2003.
9
    3.5 million vehicles x 20 seconds = 70,000,000 seconds = 2.22 years.




Page 10                              A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                             inspection time may translate into a signiﬁcant resource savings for CBP as well
                             as a signiﬁcant saving of time for travelers.

     Low Risk Travelers

                             We have several concerns with program management practices associated with
                             SENTRI applicant risk determination; speciﬁcally, the lack of uniform thresholds
                             for criminal offenses, ﬁnancial solvency, and residency, as well as apparent
                             inconsistencies with application approvals and denials. Also, problems exist
                             in resolving derogatory information from the background checks and with the
                             separation of CBP ofﬁcer duties in the overall enrollment process. However, we
                             did not identify any cases of improper enrollment in the SENTRI program and
                             found that all required background checks were conducted.

                             Eligibility and Pre-enrollment

                             To be eligible for enrollment in SENTRI, all applicants must meet one of the
                             following citizenship or immigration status qualiﬁcations:

                                       A citizen of the United States
                                       A lawful permanent resident of the United States
                                       A citizen of Mexico who is admissible into the United States as a non-
                                       immigrant and holds a valid non-immigrant visa or border-crossing card,
                                       who crosses the border at a designated SENTRI DCL land POE
                                       A citizen of Canada and a landed immigrant who is admissible into
                                       the United States as a non-immigrant, and who crosses the border at a
                                       designated SENTRI DCL land POE
                                       A citizen of another country who is admissible into the United States as a
                                       non-immigrant or other category authorizing temporary entry to the United
                                       States, which may include those having received a waiver of special
                                       registration processing, who crosses the border at a designated SENTRI
                                       DCL land POE

                             The enrollment process begins when an applicant submits the Form I-823,
                             Application - Alternative Inspection Services, to the SENTRI Enrollment
                             Center in person or by mail.10 All SENTRI program applicants must submit a
                             completed Form I-823 before enrollment is considered, irrespective of whether

10
  Form I-823 is also submitted at each enrollment renewal and when updating existing enrollment records, such as to report a change in
vehicle or addition or deletion of an enrollee.



              A Review of the Secure Electronic Network for Travelers Rapid Inspection Program                                 Page 11
                             they intend to use SENTRI DCLs as a driver of a vehicle or as a passenger. With
                             the application, applicants must provide originals of the following applicable
                             citizenship or immigration documents:
                                     Evidence of United States citizenship
                                     A valid passport, visa, or other entry document11
                                     Evidence of lawful permanent residence in the United States

                             Applicants must further provide original documents to establish:

                                      Employment or ﬁnancial solvency
                                      Residence

                             Some examples of documents that may be submitted to establish employment
                             or ﬁnancial solvency are salary pay stubs, bank statements, parental support
                             certiﬁcations, or business licenses. Residency may be established with utility
                             bills, or rental or mortgage payment receipts. If an applicant is applying for
                             enrollment of a vehicle, originals of the following documents must also be
                             provided:

                                      A valid driver’s license issued by the state where residence is established
                                      Current vehicle registration
                                      Current automobile insurance

                             Once an application is completed, CBP ofﬁcers conduct an initial interview
                             with the applicant to determine potential eligibility. The initial interview is an
                             opportunity for the CBP ofﬁcer to evaluate the completeness of the I-823, to
                             review and verify supporting documentation, to elicit and ascertain additional
                             information from the applicant, and to resolve any conﬂicting information. Upon
                             successful completion of the initial interview, the enrollment fee of $49.00 is
                             collected, an applicant’s ﬁngerprints are taken,12 copies of all documents are made,
                             a hard copy ﬁle is created, and an applicant is pre-enrolled in GES.

                             If, during the initial interview, the CBP ofﬁcer believes that false information or
                             documentation has been presented, or the applicant is not eligible for participation
                             in SENTRI, the ofﬁcer confers with the Enrollment Center supervisor to initiate
                             action to resolve issues or to deny the application.

11
  Even applicants from the 27 Visa Waiver countries allowed 90-day entries into the United States under the Visa Waiver Permanent
Program Act of 2000, Public Law 106-396, must have a visa to enroll in SENTRI.
12
     Minor applicants under the age of 14 are not ﬁngerprinted.



Page 12                           A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                               During the pre-enrollment process, CBP ofﬁcers enter biographic information into
                               GES, which creates a permanent PortPASS identiﬁcation number that is assigned
                               to the applicant. This identiﬁcation number is printed on the PortPASS card and
                               issued to the applicant at the ﬁnal interview. At pre-enrollment, CBP ofﬁcers have
                               input access into GES for the following screens: Applicant Name and Date of
                               Birth, Type of Application, Applicant Biographic Information, Applicant Passport/
                               Visa Information, and Applicant Status.

                               CBP has established an internal control for immigration documents to capture
                               instances where an applicant’s visa or immigration status will expire within the
                               two-year SENTRI enrollment period. CBP ofﬁcers manually place a ﬂag in GES
                               when an immigration document expires before the initial enrollment period; in
                               such cases the enrollment is authorized only for the period of admissibility into
                               the country afforded the applicant. This information is automatically accessible to
                               the CBP ofﬁcer when the traveler uses the SENTRI DCL.

                               Every applicant record at pre-enrollment is categorized as “pending” until all
                               criminal and other background checks are completed.13 As of December 17, 2003,
                               the total number of pending pre-enrollments at both Enrollment Centers was
                               approximately 4,100. The majority of pre-enrollments in the pending category are
                               processed within 60 days or less.

                               Background Checks

                               CBP uses an array of background checks to identify low risk travelers and to
                               conﬁrm other information presented by the applicant. Fingerprints taken at the
                               initial interview are sent to the Federal Bureau of Investigation’s (FBI) National
                               Crime Information Center and to the Western Identiﬁcation Network/Automated
                               Finger Print System for criminal and terrorist background checks. In addition, the
                               following background checks are performed for all SENTRI program applicants
                               18 years or older to ﬁnd any possible criminal or immigration violations.14

                                         Central Index System (CIS)
                                         Deportable Alien Control System (DACS)
                                         National Automated Immigration Lookout System (NAILS)



13
     At pre-enrollment, applicants are not authorized to use SENTRI DCLs.
14
     A detailed explanation of SENTRI background checks and system queries is outlined in Appendix A.




                 A Review of the Secure Electronic Network for Travelers Rapid Inspection Program         Page 13
                                      Interagency Border Inspection System (IBIS)

                             For applicants who are enrolling a vehicle, additional background checks are
                             performed for all SENTRI program applicants 18 years or older to conﬁrm
                             vehicle registration information, driver license records, border crossing, and
                             address:

                                      Treasury Enforcement Communications System (TECS)
                                      National Law Enforcement Telecommunication System (NLETS)

                             As various background checks are completed, CBP ofﬁcers note the completion
                             and results of these checks in the Applicant’s Daily Log. When all of the
                             background checks are completed, the applicant’s ﬁle is reviewed to determine
                             eligibility for the SENTRI program.

                             Application Adjudication

                             Only CBP ofﬁcers can make the determination to enroll an applicant into the
                             SENTRI program. Enrollment in SENTRI is granted only to low risk travelers. If
                             an applicant’s low risk was not demonstrated or cannot be established through the
                             application procedure, the applicant is ineligible for the program. CBP ofﬁcers
                             consider several factors when evaluating applications and determining low risk.
                             Applicants may not be low risk if they:

                                      Have provided false, misleading, or incomplete information on the
                                      application
                                      Have been convicted of a criminal offense or have pending criminal
                                      charges
                                      Have violated customs, immigration, or other federal law, or the laws of
                                      another country
                                      Are inadmissible to the United States
                                      Are associated with high risk groups,15 activities, or CBP cannot determine
                                      criminal or residence history
                                      Are subject to processing at entry that requires repeated secondary
                                      referrals16
15
   High-risk groups may include people known by law enforcement agencies to have engaged in or been convicted of criminal violations
of law such as alien smuggling and narcotics trafﬁcking. An applicant’s association with a person engaged in or convicted of criminal
violations may be grounds for the denial of the application.
16
   For example, those who are subject to additional registration requirements, such as those under the National Security Entry Exit
Registration System, which requires visitors to the United States from speciﬁc countries to register upon arrival and departure.




Page 14                           A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                              Using the above criteria, CBP ofﬁcers use considerable discretion in determining
                              that an applicant is low risk. For example, if an applicant submits misleading
                              or false information on the application or omits information, CBP ofﬁcers are
                              able to consider whether this action appears to be unintentional or results from
                              a misunderstanding. In addition, CBP ofﬁcers consider whether this corrected
                              or omitted information would have been prejudicial to eligibility had it been
                              included on the application.

                              When an applicant admits to having a criminal history, CBP ofﬁcers may
                              consider whether it was for an arrest or a conviction. If an arrest, there may
                              be consideration of the number of arrests, the nature of offenses, and when
                              they occurred. If a conviction, they may consider whether it was a felony or a
                              misdemeanor, the sentence imposed and served, when it occurred, whether a
                              waiver of inadmissibility was granted, whether there was any form of relief or
                              leniency by the court, and any evidence of rehabilitation.

                              Minimum Thresholds for Adjudicating Applications

                              CBP has not established thresholds for allowable violations, arrests, or
                              convictions before an application must be denied. CBP ofﬁcers use considerable
                              discretion in determining an applicant’s low risk. While we agree that rigid
                              standards may not be useful, CBP has not provided its ofﬁcers with guidelines to
                              assist them when reviewing applications. CBP ofﬁcers generally understood what
                              types of criminal backgrounds, i.e., narcotics or alien smuggling violations, are
                              immediate causes for application denial. They were uncertain, however, about
                              what type and how many minor offenses might be allowed before an application
                              should be denied. For example, at one Enrollment Center, an applicant who had
                              multiple immigration arrests and violations had been approved for enrollment.
                              Further evidence of the discretion permitted in approving applications is revealed
                              by an examination of the denial rates at both Enrollment Centers. From the
                              beginning of the program at each land POE to December 17, 2003, there were
                              4,122 total applications for enrollment that were denied for the reasons stated in
                              the chart on the following page.17




17
     Data provided by the CBP contractor, CSC, December 17, 2003.




                 A Review of the Secure Electronic Network for Travelers Rapid Inspection Program        Page 15
                                           Denied Applications
                                          Ysleta Enrollment    Otay Mesa Enrollment
                   Reasons for Denial                                                 Total
                                          Center El Paso, TX   Center, Otay Mesa CA
              A - IBIS Hit INS                    1                     142           143
              B - IBIS Hit Customs                3                    58              61
              C - IBIS Hit NCIC                  13                    275            288
              D - IBIS Hit CLASS                  1                    32              33
              E - Ineligible Country              0                     3              3
              F - Non-Business Traveler           0                    13              13
              G - Non-Frequent Traveler           0                    110            110
              H - Smuggling Customs               0                    40              40
              I - Smuggling INS                   0                    233            233
              J - Others                         57                   2,133           2,190
              K - Out of Status                   0                    269            269
              L - Failure to Disclose
                                                  3                    518            521
              Criminal History
              M - Failure to Disclose
                                                  1                    217            218
              Immigration History
              Total Denials                      79                   4,043           4,122



          From the beginning of the program at each Enrollment Center to December 17,
          2003, the total number of applications (80,292) made for enrollment in SENTRI
          was 19,820 at the Ysleta Enrollment Center in El Paso, Texas; and, 60,472 at the
          Otay Mesa Enrollment Center in California. Using these ﬁgures and the total
          denied applications, the applicant denial rate at Ysleta was approximately 0.4
          percent, versus a denial rate at Otay Mesa of approximately 6.7 percent. Also,
          we examined some of the characteristics of the populations applying at the
          two Enrollment Centers. We concluded that the two populations applying for
          enrollment at both Enrollment Centers had similar citizenship and immigration
          status. We would expect the denial rates at the two Enrollment Centers to be
          similar. Instead, the denial rate varied by more than six percent between the
          Enrollment Centers. This suggests that the two Enrollment Centers are applying
          different standards. We attribute this variance to CBP ofﬁcials’ not clearly
          deﬁning program eligibility criteria.

          Thresholds should be established to provide CBP ofﬁcers, Enrollment Center
          supervisors, and senior port ofﬁcials with the ability to make low risk applicant
          determination within deﬁnable, defensible, consistent, and measurable
          parameters. This guidance should include thresholds that deﬁne denial criteria
          for the types and numbers of minor violations and offenses that may be permitted
          before an application must be denied. Establishing thresholds is important to
          ensure the integrity of the SENTRI program. Uniform application of set ..............


Page 16       A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
             standards reduces “port shopping” by mala ﬁde applicants and provides more
             equitable treatment for all applicants.

             We recommend that the Commissioner of Customs and Border Protection:

             Recommendation 1: Provide a statement of program eligibility criteria that
             establishes a minimum and objective threshold for violations, arrests, and
             convictions to evaluate applicants seeking enrollment or an enrollment extension
             in SENTRI.

             Adjudicating Background Checks

             If the background checks uncover derogatory information, the CBP ofﬁcer must
             ensure that the check has correctly identiﬁed the applicant. Some “hits” prove to
             be erroneous because of similarities in names, misspellings, incorrect addresses,
             or other such reasons. The match may correctly identify the applicant, but there
             may be mitigating reasons that justify continuing the application process. In any
             case, the information must be resolved favorably for the application process to go
             forward.

             Both Enrollment Centers processed background checks in a uniform and
             consistent manner and performed all appropriate system queries as outlined in
             draft program guidelines. We identiﬁed, however, some discrepancies involving
             the resolution of hits received on the background checks and record keeping.
             For example, of the 88 approved ﬁrst time enrollment ﬁles we reviewed at the
             Ysleta Enrollment Center in El Paso, Texas, 10 ﬁles or approximately 11 percent,
             had background check printouts indicating a hit or match, but no indication of
             how the hit was favorably resolved, or even whether it was resolved. Further,
             the printouts sometimes did not contain the name of the applicant, so it was
             impossible to tell how or whether the printout pertained to the applicant.
             More complete documentation should be included in the ﬁles to describe how
             background check hits were adjudicated to support a favorable resolution
             adequately and to avoid the possible perception that negative information was not
             satisfactorily resolved before the application was approved. At the Otay Mesa
             Enrollment Center in California, of the 90 approved ﬁrst time enrollment ﬁles we
             reviewed, all background checks returning derogatory information were resolved
             and noted in the ﬁle.




A Review of the Secure Electronic Network for Travelers Rapid Inspection Program       Page 17
          We recommend that the Commissioner of Customs and Border Protection:

          Recommendation 2: Establish procedures for all SENTRI Enrollment Centers
          that deﬁne how CBP ofﬁcers resolve hits generated by background checks and
          how they document such resolution in the applicant ﬁles

          Eligibility Criteria for Employment, Financial Solvency, and Residence

          Eligibility criteria used by CBP ofﬁcers to determine the employment or ﬁnancial
          solvency and the residency of applicants is not uniform. For example, at the
          Otay Mesa Enrollment Center, applicants must establish employment or ﬁnancial
          solvency by meeting a $12,000 per year income threshold for enrollment
          consideration, and provide ﬁnancial documents for the last three months. At
          the Ysleta Enrollment Center, however, there is no established threshold for
          employment or ﬁnancial solvency, and ﬁnancial documents are requested for only
          one month. Similarly, when determining residency, Otay Mesa applicants are
          requested to provide documentation for three months, but Ysleta applicants are
          requested to provide documentation for only one month.

          Establishing employment or ﬁnancial solvency and residency are critical
          elements to ensuring the integrity of the SENTRI program and border security.
          Financially insolvent applicants or applicants without a permanent residence are
          more likely to become aliens illegally residing in the United States. In addition,
          such applicants may be more likely to enter the United States to engage in
          criminal or terrorist activity. Uniform and consistent thresholds can reduce the
          opportunity to misrepresent ﬁnancial status and place of residence. Uniform
          employment, ﬁnancial solvency, and residency requirements must be established
          so that applicants for enrollment are not held to different standards by different
          Enrollment Centers.

          We recommend that the Commissioner of Customs and Border Protection:

          Recommendation 3: Develop a uniform minimum economic threshold to
          establish employment or ﬁnancial solvency, and develop a uniform timeframe
          for documents requested to establish both employment or ﬁnancial solvency and
          residency.




Page 18      A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
             Separation of Duties in the Enrollment Process

             An additional control to help ensure the integrity of the SENTRI enrollment
             process is the separation of duties between CBP ofﬁcers performing the various
             enrollment functions. One Enrollment Center has an established business
             practice that CBP ofﬁcers conducting initial interviews, performing background
             checks, and adjudicating applications may not render the ﬁnal approval for
             the same application. This separation of duties is intended to reduce the
             opportunities for fraud, abuse, and corruption. Involving more than one CBP
             ofﬁcer in the process reduces the chance that a corrupt ofﬁcer can improperly
             review, adjudicate, or approve an ineligible applicant for enrollment. Having
             another ofﬁcer review the completeness of an application for ﬁnal enrollment
             approval also serves as an internal quality control mechanism to ensure various
             enrollment functions are properly conducted. At the other Enrollment Center,
             the same CBP ofﬁcer is permitted to conduct the initial interview and perform
             background checks and application adjudication, as well as approve the
             application for ﬁnal enrollment. The CBP ofﬁcer making the ﬁnal enrollment
             decision should not be the same ofﬁcer conducting the initial applicant interview
             and performing background checks and application adjudication.

             We recommend that the Commissioner of Customs and Border Protection:

             Recommendation 4: Establish a policy to require the separation of duties
             to ensure that the CBP ofﬁcer conducting an initial interview and performing
             background checks and application adjudication is not the same ofﬁcer approving
             the application for ﬁnal enrollment.

             Vehicle Inspection and Final Interview

             If CBP determines that an applicant is not qualiﬁed for participation in SENTRI,
             the application is denied. Applicants must wait 90 days from the date of the
             denial to reapply. When CBP ofﬁcers favorably adjudicate the application, the
             applicant is contacted for a ﬁnal interview. Final interviews are not scheduled
             until all background checks are completed and a decision to grant enrollment
             has been made. If the applicant is also applying for enrollment of a vehicle, the
             vehicle is inspected when the ﬁnal interview is conducted. At ﬁnal enrollment,
             CBP ofﬁcers conduct a ﬁnal interview with the applicant, the vehicle is
             physically inspected, and a ﬁnal system fee is collected.




A Review of the Secure Electronic Network for Travelers Rapid Inspection Program        Page 19
                 All vehicles must conform to the required program maximum standards, i.e.,
                 wheel base length 142 inches and maximum height of 75 inches and pass a
                 seven-point inspection. The vehicle inspection targets the areas most often
                 used for smuggling large quantities of narcotics and other contraband. CBP has
                 determined these target areas through local research and post-seizure analysis
                 along the southern border. When available, CBP ofﬁcers will use K-9 narcotics
                 detection dogs in the vehicle inspection process. The vehicle may be x-rayed
                 if deemed necessary; however, x-ray vehicle inspection is rarely performed for
                 SENTRI.

                 Upon successful completion of the ﬁnal interview and vehicle inspection, CBP
                 ofﬁcers enroll the applicant in the SENTRI DCL program. Final enrollment
                 includes:

                         Providing an orientation packet to the enrollee that includes a copy of
                         SENTRI DCL rules, CBP publications “Know Before You Go” and
                         “Notice to Travelers,” DCL and Enrollment Center hours of operations,
                         and an explanation of actions that will lead to suspension or revocation of
                         SENTRI DCL privileges;
                         Having the enrollee sign a form acknowledging SENTRI DCL rules were
                         explained;
                         Taking a digital photograph of the enrollee, printing a SENTRI DCL
                         PortPASS card, and issuing it;
                         Afﬁxing a radio frequency identiﬁcation transponder to the windshield of
                         the vehicle; and
                         Verifying pre-enrollment information on the I-823 with information
                         contained in GES and updating any changes.

                 In addition, enrollees are told that any device or identiﬁcation issued in order
                 to participate in the SENTRI program remains the property of the federal
                 government. When the ﬁnal enrollment process is completed, the enrollee may
                 begin using SENTRI DCLs to gain entry to the Unites States.


Continued Eligibility of SENTRI Enrollees

                 We have concerns about program management practices that are intended to
                 ensure that SENTRI enrollees continue to be eligible for participation in the
                 program. Speciﬁcally, problems exist with updating SENTRI system records,
                 documenting violations, administrating penalties, establishing criteria for


Page 20             A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
             conducting random compliance inspections, and documenting the results of
             compliance inspections.

             Updating the Global Enrollment System

             A major strength of the SENTRI enrollment process is that CBP conducts an
             array of law enforcement database and criminal record background checks prior
             to enrollment. Equally important is CBP’s ongoing monitoring of an enrollee’s
             continued eligibility to remain in the SENTRI program after initial enrollment.

             CBP must have immediate knowledge of an enrollee’s involvement in criminal
             activity, immigration violations, or other behavior that would make the
             enrollee ineligible for continued participation in the program. CBP obtains
             this information by running the entire SENTRI enrollment database from GES
             every 24 hours in TECS, which compares the names in GES with its current
             law enforcement, immigration, and terrorist information contained in TECS.
             TECS returns a report to both Enrollment Centers that identiﬁes matches. When
             a match occurs, an interdiction notice is entered into GES. The next time the
             enrollee enters a SENTRI DCL, the interdiction notice is displayed and the
             inspecting CBP ofﬁcer may stop the vehicle to conduct an inquiry or refer the
             enrollee to secondary inspection, if necessary.

             While current TECS information is accessible by the CBP ofﬁcer at the time of
             inspection, it is not displayed on the GES monitor in the inspection booth. The
             CBP ofﬁcer must conduct a separate query in TECS to obtain that information.
             Entering the data into GES makes the information immediately accessible to the
             CBP ofﬁcer in the inspection booth. This information not only serves to prevent
             ineligible SENTRI travelers from continuing to use the SENTRI program, but it
             also provides an additional measure of safety for the ofﬁcers.

             The current process to update GES with TECS information is time consuming
             and labor intensive, as it is an entirely manual process. Once GES data is
             uploaded into TECS, the resulting reports must be manually reviewed, and new
             information regarding each affected enrollee has to be manually entered into
             GES.

             In addition, problems exist with the TECS report. When the enrollment
             database is run against TECS, all records since the enrollee’s initial application
             are returned, not just new information available since the last update. This
             comparison generates a very lengthy printed report. Because of the report’s



A Review of the Secure Electronic Network for Travelers Rapid Inspection Program          Page 21
Appendix 1
Purpose, Scope, and Methodology


                    length, CBP ofﬁcers have difﬁculty distinguishing new information from that
                    which has been previously reported. If the new information is not identiﬁed and
                    entered into GES, there is no assurance that the inspecting CBP ofﬁcer will obtain
                    the information using the manual TECS query process available in the inspection
                    booth. In addition, CBP ofﬁcials told us that the TECS updates are not always
                    current. In some situations, due to technical problems, TECS may generate a
                    report without having actually run the update. CBP ofﬁcers reviewing the TECS
                    report have no way of knowing whether the update was actually conducted.

                    CBP ofﬁcials said an interim system upgrade is planned for TECS to return
                    only enrollee records since the last system request for information was made.
                    This upgrade is intended to reduce the length of the report and to increase the
                    inspection ofﬁcer’s ability to distinguish relevant information for manual input
                    into GES. CBP ofﬁcials said the ﬁelding of this upgrade is planned for July
                    2004.

                    The Ysleta Enrollment Center in El Paso, Texas is conducting TECS queries only
                    at initial enrollment and enrollment renewal. It is not conducting any ongoing
                    or routine queries to monitor an enrollee’s continued eligibility. Draft program
                    guidelines stipulate that the entire enrollment database must be updated through
                    TECS on a 24-hour basis. By not performing these queries daily, the integrity of
                    the SENTRI program and border security is compromised.

                    We recommend that the Commissioner of Customs and Border Protection:

                    Recommendation 5: Implement policy, guidance, and procedures for routine
                    and timely system queries to monitor continued eligibility of SENTRI program
                    enrollees.

                    Recommendation 6: Provide the OIG with a plan and schedule for achievement
                    under which GES, or any successor system, will establish real time connectivity
                    with TECS.

                    Conducting Compliance Inspections

                    Each SENTRI POE conducted secondary inspections through a combination
                    of random computer and ofﬁcer-generated referrals. Of the vehicles processed
                    through each SENTRI DCL from January 1, 2003, to December 12, 2003,
                    Stanton Street Bridge in El Paso, Texas performed (b)(2)High
                                                                            percent secondary
                                                                               (b)(2)High




                    inspections; Otay Mesa, California performed(b)(2)High
                                                                       percent; and, San Ysidro,
                                                                         (b)(2)High




Page 22                A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                             California performed (b)(2)High
                                                      percent. Vehicles processed and secondary inspections
                                                           (b)(2)High




                             conducted by land POE in SENTRI DCLs are summarized below.18
                                                        Secondary Inspections in SENTRI DCLs
                                                                      Total Vehicles    Total Secondary
                                                  Port of Entry
                                                                    Processed in DCLs Inspections in DCLs
                                                El Paso, TX             1,251,265           (b)(2)High
                                                                                            (b)(2)High

                                                Otay Mesa, CA            623,029
                                                San Ysidro, CA          1,600,401
                                                Total                   3,474,695



                            Each SENTRI POE used different criteria to establish the number of computer
                            and manually generated random compliance inspections. For example, CBP
                            ﬁeld ofﬁcials told us that at the Stanton Street Bridge land POE, the computer
                            generated compliance inspection rate was tied to the National Homeland Security
                            Advisory System.19 (b)(2)High(b)(2)High



                            (b)(2)High
                             (b)(2)High



                            (b)(2)High
                             (b)(2)High
                                                                                                          In
                            contrast, we were told that the frequency                of (b)(2)Highe
                                                                                       inspections in Otay
                                                                                       (b)(2)High

                            Mesa and San Ysidro land POEs runs from                   percent. There was no
                            indication that these percentages are tied to any alert system.

                            While we do not offer an opinion about what the appropriate compliance
                            inspection rate should be, we are concerned that the criteria for establishing
                            the rates was so different at the POEs and was not based on any risk or threat.
                            Despite what we were told at the POEs, CBP headquarters ofﬁcials were emphatic
                            that only headquarters and not the POEs set compliance inspection rates. Further,
                            while the Stanton Street Bridge land POE used the National Homeland Security
                            Advisory System as a guide, the (b)(2)High
                                                                  “percent” and “ (b)(2)High
                                                                        (b)(2)High
                                                                                    percent” compliance
                                                                                                    (b)(2)High




                            inspection rates were selected arbitrarily.

                            Also, CBP does not document the results of secondary inspections in GES.
                            No records were available in GES to describe the resolution or the outcome
                            of secondary inspections, regardless of the reason the secondary referral was
                            initiated. Accordingly, CBP program ofﬁcials do not have sufﬁcient performance
                            data to alert them to trends, actions, or violations that may have impact on the
                            program’s effectiveness and security.

18
   GES data for SENTRI DCLs tracks secondary inspections, but does not distinguish between successful and unsuccessful inspections. Data
provided by the CBP contractor, CSC, December 17, 2003. These ﬁgures cover January 1, 2003 to December 12, 2003.
19
  The Homeland Security Advisory System uses ﬁve colors: Red=Severe, Orange=High, Yellow=Elevated, Blue=Guarded, and Green=Low,
to alert the public an governmental organizations to the risk of terrorist activities.



              A Review of the Secure Electronic Network for Travelers Rapid Inspection Program                               Page 23
          Establishing compliance inspection rates that are not based on risk, threat, or
          analysis of the results of previous compliance inspections weakens the integrity of
          the SENTRI program. Setting compliance inspection rates higher than required
          wastes valuable CBP resources and unnecessarily inconveniences the traveling
          public. Setting compliance inspection rates too low weakens the enforcement of
          SENTRI regulations and potentially compromises border security.

          We recommend that the Commissioner of Customs and Border Protection:

          Recommendation 7: Establish a program to document the results of all
          secondary inspections, analyze the results, and use the analysis to establish
          appropriate compliance inspection rates.

          Recommendation 8: Establish guidance to the POEs to allow for temporary
          modiﬁcation of compliance inspection rates based on local threat level concerns.

          SENTRI Violations and Penalties

          If an enrollee commits a violation, depending on its severity, CBP ofﬁcers and
          supervisors may issue a verbal or written warning, a suspension for up to 90 days,
          or a permanent revocation from the program.

          Examples of violations considered minor by CBP that would warrant a written
          warning are:

                  Transporting an unauthorized passenger
                  Placing a transponder on an unauthorized vehicle
                  Having an expired enrollment (less than 30 days)
                  Not possessing a valid PortPASS card
                  Traveling in an unauthorized vehicle

          If subsequent violations or other minor violations of a similar nature occur,
          suspension of enrollment is considered. Examples of violations, not considered
          minor that would warrant a suspension of up to 90 days are:

                  Violating any provision indicated on the I-823
                  Permitting an unauthorized person to use an authorized vehicle
                  Refusing or neglecting to obey any proper order of CBP ofﬁcers or other
                  port ofﬁcer
                  Using an expired PortPASS



Page 24       A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                                         A law enforcement agency requests suspension because of an ongoing
                                         investigation

                               If an enrollee receives three suspensions, the enrollee is removed from the
                               program for two years from the date of the last suspension.

                               Examples of violations that warrant a permanent revocation of an enrollee’s
                               participation in SENTRI are:

                                         Inadmissibility to the United States
                                         Meets one or more of the denial categories that would have resulted in
                                         initial ineligibility
                                         Documented violation or ﬁne imposed as a result of importation of .
                                         controlled or restricted merchandise, including samples, or undeclared
                                         monetary instruments

                               When a violation occurs, the CBP ofﬁcer takes possession of the PortPASS card
                               and vehicle transponder, explains the violation to the enrollee, and directs the
                               enrollee to the Enrollment Center Supervisor to discuss the violation and penalty.20
                               The inspecting CBP ofﬁcer then prepares a written report of the incident that
                               includes a description of the violation and a recommendation for suspension. The
                               report is given to the Enrollment Center supervisor for review.

                               Only the Enrollment Center supervisor approves suspensions and permanent
                               revocations. The supervisor may determine that a suspension is not warranted
                               and may issue a verbal or written warning to the enrollee and return the PortPASS
                               card and transponder. If a suspension is approved, a letter is prepared and given
                               to the enrollee, in person or by mail, stipulating the reason for suspension and
                               its duration. The suspension is documented in the enrollee’s hard copy ﬁle and
                               entered into GES. Enrollees do not have the right to appeal a suspension or
                               revocation decision.

                               We performed an analysis of GES revocation data for each Enrollment Center.21
                               We categorized enrollees as “Other” when the reason for suspension or revocation
                               was not deﬁned or the ﬁle contained the entry “suspension – no longer in
                               program.” We placed 967 enrollees in the “Other” category.



20
  If the enrollee is otherwise admissible to the United States or is a United States citizen, the enrollee is allowed to enter the Unites States.
21
  The data provided to us included enrollees who elected not to renew enrollment in the program. We ommitted all enrollees from our
analysis where there was a clear indication the enrollee did not renew enrollment.


               A Review of the Secure Electronic Network for Travelers Rapid Inspection Program                                         Page 25
                                               San Ysidro and Otay Mesa California Land POEs Revocations22
                                                   Total                                                            > 90       Permanent         Total
                                  Violations                      Fine       30 Day       60 Day       90 Day
                                                 Violations                                                         Days       Revocation       Penalties
                                 Criminal               112              0            0            0            2          0            67              69
                                 SENTRI                 167              0            3            2        45             2            42              94
                                 Immigration            547              0            2            1        14         11              180             208
                                 Customs                105              2            1            0        35             0            30              68
                                 Agriculture             68          32               1            1        10             0            19              63
                                 Other                  204              0            0            0        13             0            51              64
                                 Total                 1203          34               7            4       119         13              389             566


                                               Stanton Street Bridge Land POE El Paso, Texas Revocations23
                                                   Total                                                            > 90       Permanent         Total
                                  Violations                      Fine       30 Day       60 Day       90 Day
                                                 Violations                                                         Days       Revocation       Penalties
                                 Criminal                23              0            0            0            0          0            23              23
                                 SENTRI                       2          0            0            0            0          0                2               2
                                 Immigration             10              0            0            0            0          0            10              10
                                 Customs                      0          0            0            0            0          0                0               0
                                 Agriculture                  0          0            0            0            0          0                0               0
                                 Other                  763              0            0            0            0          0                0               0
                                 Total                  798              0            0            0            0          0            35              35




                            Even though CBP ofﬁcials told us there is a “zero tolerance” for enrollees’
                            violating either SENTRI DCL rules or other US regulations and laws, there was
                            a signiﬁcant difference between the total number of violations recorded in GES
                            and the total number of penalties imposed. For both Enrollment Centers there
                            were 2,001 total violations recorded in GES, but only 601 penalties imposed.
                            For approximately 70 percent of the reported violations, there was no GES
                            record of penalties imposed. Also, the only penalties that the Ysleta Enrollment
                            Center in El Paso, Texas was recording were permanent revocations. For the
                            violations recorded in GES, we did not conduct a review of all enrollee ﬁles to
                            verify whether penalties were administered. We concluded, however, that the
                            Enrollment Centers were not documenting SENTRI program violations and
                            penalties imposed in GES in a uniform and consistent manner.

                            Furthermore, the 967 violations, or approximately 48 percent, that we placed in
                            the “Other” category were not adequately described in GES. The draft program

22
   The GES revocation data, from January 2001 to December 2003, was provided to us on December 10, 2003, by the Otay Mesa
Enrollment Center in California.
23
   The GES revocation data, from September 1999 to December 2003, was provided to us on December 17, 2003, by the Ysleta Enrollment
Center in El Paso, Texas.



Page 26                          A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                  guidelines do not address what information should be recorded in the hard copy
                  or the GES electronic ﬁle of an enrollee concerning violations, verbal and written
                  warnings, and suspensions.

                  CBP’s failure to provide adequate guidance on what information should be placed
                  in GES for SENTRI program violations and related penalties hamper its ability
                  to monitor the program effectively. CBP program ofﬁcials are unable to identify
                  systemic problems with program enforcement and potential program weaknesses.
                  In addition, without the ability to monitor program enforcement, there can be no
                  assurance that SENTRI violators are appropriately penalized or removed from the
                  program.

                  We recommend that the Commissioner of Customs and Border Protection:

                  Recommendation 9: Establish policies and procedures that require CBP ofﬁcers
                  to identify and record SENTRI violations and the resulting penalties imposed that
                  will alert CBP ofﬁcers to such information when accessing GES.


SENTRI Program Management and Oversight

                  We have several concerns about the SENTRI program that involve program
                  management and oversight at the national level. The concerns begin with the
                  enrollment process and include the lack of uniform thresholds for criminal
                  offenses, ﬁnancial solvency, and residency, as well as apparent inconsistencies
                  with application approvals and denials. After initial enrollment, problems exist
                  with updating GES, documenting SENTRI violations, administering penalties,
                  establishing criteria for conducting random compliance inspections, and
                  documenting the results of compliance inspections. These concerns may not
                  be signiﬁcant individually, but taken as a whole, they indicate weak program
                  management that could jeopardize the program’s integrity and border security.

                  CBP ﬁeld ofﬁcials said that they have been disappointed recently in the level of
                  CBP headquarters’ direction and interest in the SENTRI program. Furthermore,
                  they told us that the program has suffered because of high turnover in the program
                  manager position, a lack of knowledge of program operations, and the low
                  priority given to the program.

                  Additionally, CBP ﬁeld ofﬁcials told us that there was little communication with
                  CBP headquarters. According to ﬁeld ofﬁcials, there has been a lack of oversight,


     A Review of the Secure Electronic Network for Travelers Rapid Inspection Program        Page 27
          guidance, and direction provided to SENTRI ﬁeld managers to collect, track,
          and analyze meaningful performance data for use in evaluating the program’s
          effectiveness. For example, CBP ﬁeld ofﬁcials at both Enrollment Centers
          told us that their limited contact with CBP headquarters usually concerned the
          number of applications made, increases in enrollment, backlogs in processing,
          and DCL waiting times. While these are valuable performance measures,
          they represent only a portion of the data that should be collected to evaluate
          the SENTRI program. These measures are focused on the customer service
          aspects of the program and ignore the even more important law enforcement and
          border security concerns. In addition, the program currently operates with draft
          standard operating procedures and guidelines, even though the program has been
          operational at the Otay Mesa, California land POE since November 1995; at the
          Stanton Street Bridge land POE in El Paso, Texas since September 1999; and at
          the land POE in San Ysidro, California since September 2000.

          We were impressed by the capabilities of GES to record and report signiﬁcant
          program information. We were disappointed, however, with CBP’s not making
          full use of the capabilities of GES. Data quality problems due, in part, to lack of
          program guidance is also evident. Further, SENTRI program managers do not
          have access to GES at CBP headquarters and do not request GES reports from the
          Enrollment Centers.

          We identiﬁed several examples of GES performance data that was not collected
          but that could have been used by SENTRI program managers to improve the
          program. For example, there is no performance data available to evaluate how
          the number of violations in SENTRI DCLs compares to the number of violations
          in regular lanes, or to assess why the percentage used for conducting compliance
          inspections at land POEs in SENTRI DCLs is not uniform. In addition, data is
          not maintained as to the reasons secondary inspections are conducted in SENTRI
          DCL, e.g., system compliance check, random check, or CBP ofﬁcer referral;
          the resolution or outcome of secondary inspections is not tracked; violations of
          SENTRI rules and other violations are not consistently recorded in GES at land
          POEs; and, there is no clear breakdown for reasons why the majority of applicants
          are denied enrollment or denied enrollment renewal. With program guidance and
          oversight in the use of GES, GES reports could become a more useful tool for
          program managers to identify and resolve inefﬁcient and ineffective aspects of the
          program, as well as to address law enforcement and security vulnerabilities.

          Performance data also relates to how a POE manages trafﬁc volume. Because
          of space limitations at the POEs, SENTRI DCLs are not usually created through



Page 28      A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
             new construction. Normally, a new DCL is created by the re-designation of a
             regular inspection lane to a DCL. If CBP does not properly project potential
             SENTRI trafﬁc volume and does not designate sufﬁcient DCLs, the vehicle trafﬁc
             in the DCLs could back up, creating waiting times as long as those in the regular
             inspection lanes. This would defeat the purpose of the SENTRI program and
             reduce SENTRI usage. Conversely, if the DCLs do not get sufﬁcient use, then
             resources are inappropriately taken from the regular inspection lanes, creating
             additional trafﬁc problems in those lanes.

             There is also a need for a formal SENTRI training program for CBP ofﬁcers
             assigned SENTRI duties. We were told that the training program at the POEs
             consisted of two to three days of on-the-job training with another CBP ofﬁcer.
             New ofﬁcers do not receive written SENTRI polices or procedures. The current
             SENTRI standard operating procedures were in draft, and did not always reﬂect
             current program operations. Institutional knowledge of the program was not
             captured in training documents and is lost when experienced ofﬁcers rotate out of
             SENTRI program positions.

             Enhanced program oversight by CBP is needed. The development of performance
             data is necessary and prudent to evaluate the program’s effectiveness.
             Furthermore, guidance and standard operating procedures should be ﬁnalized
             and a standardized training program developed to ensure uniform and consistent
             program implementation at all SENTRI POEs to minimize local variances. In
             doing so, the contributions made by the program to strengthen and secure our
             border will be better realized; at the same time, any potential vulnerabilities or
             weaknesses can be sufﬁciently addressed.

             We recommend that the Commissioner of Customs and Border Protection:

             Recommendation 10: Develop a program to collect, track, and analyze SENTRI
             performance data to evaluate SENTRI’s effectiveness and efﬁciency.

             Recommendation 11: Finalize guidance and standard operating procedures,
             which should include a standardized training program, to ensure uniform and
             consistent program implementation at all SENTRI land POEs.




A Review of the Secure Electronic Network for Travelers Rapid Inspection Program       Page 29
Future SENTRI Expansion

                                After the attacks of September 11, 2001, securing our border is one of the major
                                priorities for DHS senior management, programs, and operations. DHS is
                                addressing possible vulnerabilities through a myriad of initiatives. CBP ofﬁcials
                                told us that they intend to expand the SENTRI program from three land POEs to
                                an additional four POEs. Before any expansion effort is undertaken, however,
                                CBP should address recommendations made in this report, so current program and
                                operational variances are not duplicated at expansion sites.

                                CBP ofﬁcials told us that program expansion is projected to begin in March 2004
                                and should be complete by late summer of 2004. CBP will fund the expansion
                                with approximately $60 million from ﬁscal year 2003 appropriations that were
                                redirected from the US-VISIT program. Expansion of SENTRI is planned for
                                the following land POEs: San Ysidro, CA - two additional vehicle lanes and one
                                pedestrian lane; Calexico, CA - one vehicle lane; Nogales, AZ - one vehicle lane;
                                Ysleta crossing in El Paso, TX - two vehicle lanes; Laredo, TX - one vehicle
                                lane; and Brownsville, TX - one vehicle lane. The expansion will also include
                                the construction of new Enrollment Centers at Brownsville and Laredo, TX and
                                Calexico, CA.

                                To make the expansion of SENTRI more successful, CBP should develop
                                performance data at existing locations to realize the universe of current enrollees
                                fully and the market that is served by the program. This exercise would
                                ensure prudent oversight of funding resources to maximize human capital and
                                infrastructure development devoted to the expansion. The expansion sites
                                proposed by CBP rank in the top ten land passenger gateways for incoming
                                passenger vehicles from Mexico.24 But what CBP has not determined is the
                                size of the potential SENTRI enrollee population. Possessing this knowledge
                                would enable SENTRI program managers to budget appropriate resources for the
                                expansion sites.

                                For example, in calendar year 2002, approximately 20.5 million passenger
                                vehicles used the San Ysidro and Otay Mesa land POEs in regular lanes and
                                SENTRI DCLs. The current enrollment total at both land ports is 48,357. GES
                                recorded 2,223,430 vehicles processed from January 1, 2003, to December 12,
                                2003, through SENTRI DCLs. Using this data we then calculated that the average


24
     Department of Transportation, Bureau of Transportation Statistics 2002.



Page 30                              A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                             SENTRI enrollee makes approximately 46 border crossings through DCLs each
                             year. In reality, however, some enrollees use the DCLs infrequently, while others
                             use them daily. The difference in usage patterns has potential signiﬁcant resource
                             implications. The more that is known about the enrollees’ travel patterns, the
                             better CBP’s ability to perform meaningful analysis, gain an understanding of the
                             population served by SENTRI, and project future growth.

                             CBP ofﬁcials said that at expansion sites, rather than using SENTRI’s existing
                             technology, the use of NEXUS program photographic identiﬁcation or
                             proximity card technology would be tested for use and applicability.25 It is our
                             understanding that the major difference between the two technologies is that
                             with SENTRI, the vehicle transponder activates a signal that queries GES for
                             information about the vehicle and its authorized occupants, not the PortPASS
                             card. With NEXUS, the proximity card activates a signal that queries GES for
                             information about the enrollee.26

                             There are widely differing opinions regarding the introduction of proximity
                             card technology on the southern border. Some CBP ﬁeld and US-VISIT Ofﬁce
                             ofﬁcials expressed grave concerns about eliminating a key element - the vehicle
                             - from the enrollment process. They contend that without the vehicle enrolled
                             in the program, incidents of smuggling would likely increase. Other CBP ﬁeld
                             ofﬁcials, however, did not view eliminating the vehicle from the enrollment
                             process as a security or law enforcement concern. However, CBP headquarters
                             ofﬁcials said the ﬁeld ofﬁcials were misinformed and that there is every intention
                             to continue the use of the vehicle transponder with the proximity card technology.

                             With both technologies, however, GES remains the integral stand alone system
                             and the entire enrollment database must be submitted to TECS for information
                             to update an enrollee’s continued eligibility and low risk. Once queried, CBP
                             ofﬁcers would still need to review TECS results manually and then place an
                             interdiction in the enrollee’s GES electronic ﬁle for it to be seen on the DCL
                             monitor by the ofﬁcers. CBP ofﬁcials told us that they eventually intend to make
                             system changes that would allow GES information to be linked at all SENTRI
                             land POEs and that a direct query would be made of TECS each time an enrollee
                             uses a DCL for border crossing. With these proposed changes, the SENTRI
                             program operations will be greatly enhanced by providing the enrollee with an

25
   NEXUS is a CBP northern border program to expedite travel. This program streamlines border inspection for preapproved low-risk
travelers by using a joint enrollment process and one card for expedited entry to both Canada and the United States.
26
   As expansion is planned at existing SENTRI sites, proximity card technology will be tested to ensure that transponder transmission do
not interfere with proximity card transmission signals during the changeover period.



               A Review of the Secure Electronic Network for Travelers Rapid Inspection Program                                  Page 31
          added beneﬁt to use multiple land border POEs, and, providing CBP ofﬁcers
          with “real time” information concerning the continued eligibility and low risk of
          enrollees.

          While the planned expansion of SENTRI provides additional incentive for
          implementing our recommendations, the role that SENTRI may play in US-VISIT
          makes implementation imperative. US-VISIT ofﬁcials told us that SENTRI
          would most likely be a cornerstone of the US-VISIT program, irrespective of
          whether NEXUS, SENTRI, or both technologies are applied. US-VISIT will
          provide the capability of recording the entry and exit of non-United States citizens
          into and out of the United States and will provide ofﬁcials with information about
          persons who are in the United States in violation of the terms of their admission.
          The US-VISIT system envisions using information, coupled with biometric
          identiﬁers, such as photographs and ﬁngerprints, to create an electronic check-
          in/check-out system for people who come to the United States to work, study, or
          visit. Current US-VISIT deployment plans have focused on air POEs. US-VISIT
          ofﬁcials have not yet developed plans for deployment of US-VISIT to land POEs,
          but one ofﬁcial told us that SENTRI would be an integral part of US-VISIT at
          land POEs. This makes correcting the identiﬁed weaknesses in the SENTRI
          program even more urgent so as not to hamper US-VISIT by these weaknesses.




Page 32       A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                                                                                   Appendix A
                                                   SENTRI Background Checks and System Queries



             Federal Bureau of Investigation (FBI) is sent ﬁngerprints of SENTRI
             applicants. The FBI will then make internal query of numerous databases. The
             National Crime Information Center (NCIC) is an online service provided by
             the FBI to law enforcement and criminal justice agencies to record or retrieve
             information on individuals, vehicles, and property involved in or associated
             with crimes. The system objectives are to identify wanted individuals under
             investigation or of interest to CBP. The SENTRI program uses this information to
             verify criminal history or records.

             Western Identiﬁcation Network/Automated Finger Print System (WIN/
             AFIS) is a central database of arrest records and contains ﬁngerprint images
             and text data from ten print ﬁngerprint cards. Law enforcement personnel can
             compare ﬁngerprints of apprehended individuals or latent ﬁngerprints against it
             to determine identity. It allows CBP to maintain and search criminal ﬁngerprint
             records. The SENTRI program uses this information to verify criminal history or
             records.

             Central Index System (CIS) is a centralized text-based system that identiﬁes
             the location of an alien’s A-ﬁle. It contains information on lawful permanent
             residents, naturalized citizens, violators of immigration laws, and others. It
             includes biographical and status information about the alien, such as name, date
             of birth, alien number, country of birth, citizenship, various ﬁle control data, dates
             of immigration actions, and identifying numbers. It also contains selected data
             from other databases, such as NAILS and DACS, and links those databases to
             CIS. CIS is intended to be a “pointer” system that will lead to the alien’s A-ﬁle,
             which should contain complete information on the alien, or to other databases.
             The SENTRI program uses this information to verify the immigration status of an
             applicant.

             Deportable Alien Control System (DACS) is a centralized text database and is
             used mainly to track aliens through the removal process. It contains information
             about aliens who have been detained or placed on a docket for deportation or
             exclusion. DACS includes the status or disposition of individual deportation
             cases, as well as statistical and summary data of deportation cases by type, status
             and other characteristics of the case, as well as biographical data about the alien.
             The SENTRI program uses this information to verify the immigration status of an
             applicant.

             National Automated Immigration Lookout System (NAILS) is a central
             repository for all immigration lookout information and is comprised of



A Review of the Secure Electronic Network for Travelers Rapid Inspection Program           Page 33
Appendix A
SENTRI Background Checks and System Queries



                   information supplied by automated systems within the Department of State and
                   on-line entry of CBP personnel. The system objectives are to permit CBP to
                   identify and access accurate information quickly on people who are not eligible
                   for entry into the US. The SENTRI program uses this information to verify
                   admissibility of an applicant into the United States.

                   Interagency Border Inspection System (IBIS) is a shared database of lookout
                   and enforcement data contributed from many federal agencies, including the
                   Departments of State and Agriculture. The system objectives are to identify
                   and intercept persons attempting illegal entry into the United States and to
                   facilitate lawful travelers and enhance border enforcement. Immigration lookout
                   information is provided through the National Automated Immigration Lookout
                   (NAILS) data and downloaded to IBIS nightly. It also provides access to the
                   FBI’s National Crime Information Center (NCIC) and allows users to interface
                   with all ﬁfty states via the National Law Enforcement Telecommunications
                   Systems (NLETS). The SENTRI program uses this information to determine
                   admissibility into the United States.

                   Treasury Enforcement Communications System (TECS) stores information
                   about people of interest to law enforcement agencies, so that their entry into
                   the United States may be monitored or, if necessary, prevented. TECS contains
                   inspection data on travelers who have entered or attempted entry into the US.
                   The SENTRI program uses this system to verify information provided by the
                   applicant. System queries include: SQ11 – driver’s license, SQ13 - vehicle
                   information, SQPQ - license plate record of border crossing, and SQAD - address
                   check.

                   National Law Enforcement Telecommunication System (NLETS) is a
                   computer based message switching system that links together state, local, and
                   federal law enforcement agencies for the purpose of information exchange. The
                   SENTRI program uses this information to verify motor vehicle and driver’s
                   license data. System queries include: DQ – driver’s license and RQ - vehicle
                   registration.

                   Consular Lookout and Support System (CLASS) is a Department of State
                   name checking system for visa and passport applications. The visa database
                   contains names of aliens for visa name checking, and the passport database
                   contains names of United States citizens for which there is a lookout. The
                   SENTRI program uses this information to verify the status of an applicant.




Page 34               A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                                                                                                       Appendix B
                                                                                              Management Comments




                                                                             April 29, 2004



MEMORANDUM FOR CLARK KENT ERWIN
               INSPECTOR GENERAL
                DEPARTMENT OF HOMELAND SECURITY

FROM:                      Seth M. M. Stodder
                           Director, Ofﬁce of Policy and Planning

SUBJECT:                   Response to the Ofﬁce of Inspector General Review of the Secure Electronic
                           Network for Travelers Rapid Inspection Program


Thank you for providing us with a copy of your draft report entitled “The Secure Electronic Network
for Travelers Rapid Inspection Program (SENTRI)”, and the opportunity to discuss the issues in this
report.

Customs and Border Protection (CBP) agrees with the Department of Homeland Security (DHS),
Ofﬁce of Inspector General’s (OIG) overall observations that CBP needs to take steps to enhance the
SENTRI program’s overall effectiveness. CBP has taken, and will continue to take, prudent steps to
address these factors. Attached are comments speciﬁc to the recommendations, as well as technical
comments that relate to statements that need to be clariﬁed prior to ﬁnalization of this report.

At this time CBP has not identiﬁed any information that would warrant protection under the Freedom of
Information Act and the applicable exemption.

If you have any questions regarding this response, please have a member of your staff contact Ms.
Cecelia Neglia at (202) 927-9369.


Attachment




                                        Response to OIG Draft Report


           A Review of the Secure Electronic Network for Travelers Rapid Inspection Program                Page 35
Appendix B
Management Comments



              The Secure Electronic Network for Travelers Rapid Inspection Program
                                     (ISP Report Number 18)

Response to Recommendations

Recommendation 1: Provide a statement of program eligibility criteria that establishes a minimum and
objective threshold for violations, arrests and convictions to evaluate applicants seeking enrollment or an
enrollment extension in SENTRI.

Response: In the SENTRI Directive, Ofﬁce of Field Operations (OFO) will address program eligibility
criteria that establishes a minimum and objective threshold for violations, arrests and convictions to
evaluate applicants seeking enrollment or an enrollment extension in SENTRI.

Due Date: January 1, 2005

Recommendation 2: Establish procedures for all SENTRI Enrollment Centers that deﬁne how CBP
ofﬁcers will resolve hits generated by background checks and how they will document such resolution in
the applicant ﬁles.

Response: In the SENTRI Directive, OFO will establish procedures for all SENTRI Enrollment Centers
that deﬁne how CBP ofﬁcers are to resolve hits generated by background checks and how they will
document such resolution in the applicant ﬁles.

Due Date: January 1, 2005

Recommendation 3: Develop a uniform minimum economic threshold to establish employment or
ﬁnancial solvency and develop a uniform timeframe for documents requested to establish employment,
ﬁnancial solvency and residency.

Response: In the SENTRI Directive, OFO will deﬁne a uniform minimum economic threshold to
establish employment or ﬁnancial solvency and develop a uniform timeframe for documents requested
to establish employment, ﬁnancial solvency and residency.

OFO agrees to establish proof of residency for SENTRI, but does not wish to establish a ﬁnancial
minimum for enrollment. Financial concerns should be addressed on a case-by--case basis.

Due Date: January 1, 2005




Page 36                   A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                                                                                                       Appendix B
                                                                                              Management Comments



Recommendation 4: Establish a policy to require the separation of duties to ensure that the CBP ofﬁcer
conducting an initial interview and performing background checks and application adjudication is not
the same ofﬁcer approving the application for ﬁnal enrollment.

Response: In the SENTRI Directive OFO will establish a policy to require the separation of duties
to ensure whenever possible that the CBP ofﬁcer conducting an initial interview and performing
background checks and application adjudication is not the same ofﬁcer approving the application for
ﬁnal enrollment.

OFO uses CBP ofﬁcers, who are already assigned to the port of entry to work the enrollment centers.
Therefore, a limited number of ofﬁcers can be pulled from port operations to work the centers.
Whenever possible, OFO can direct the centers to use different ofﬁcers, but due to the enormous volume
of applicants, it may not always be possible to use two different ofﬁcers.

Though it is desirable to have two ofﬁcers’ independent assessment of each applicant’s eligibility, this
requirement places a higher standard on enrollment in SENTRI than exists for granting US visas, border
crossing cards, or US citizenship (and other beneﬁts).

Due Date: January 1, 2005

Recommendation 5: Implement policy, guidance, and procedures for routine and timely system queries
to monitor continued eligibility of SENTRI program enrollees.

Response: CBP is in the process of developing a method to query each SENTRI participant at the time
of border crossing. This will be a full person subject query, identical to queries done during secondary
examination, and will look at all TECS records (CBP violators/terrorist watchlists/etc.) and will query
the National Crime Information Center (NCIC) for warrants. This will be an automated query, which
will respond to the inspector at the primary booth.

Due Date: January 1, 2005

Recommendation 6: Provide the OIG with a plan and schedule for achievement under which Global
Enrollment System (GES), or any successor system, will establish real time connectivity with TECS.

Response: It must be understood that “integrated” means that GES and TECS will be closely linked, but
that there are no plans to make GES a part of TECS. With that in mind, GES 4.0, a planned upgrade to
the current GSA used for SENTRI, will be implemented in September 2004 and will provide GES users
with automatic query capability in TECS and in other systems such as NCIC. This query capability
will enable a full series of queries to be performed automatically on enrollment and at any set intervals
during the applicant’s membership. GES 4.0 will incorporate the primary subject query capability. GES



           A Review of the Secure Electronic Network for Travelers Rapid Inspection Program                Page 37
Appendix B
Management Comments



4.0 is an independent system, which will migrate from a regional series of databases to a true global
system in September 2004.

Due Date: January 1, 2005

Recommendation 7: Establish a program to document the results of all secondary inspections, analyze
the results, and use the analysis to establish appropriate compliance inspection rates.

Response: Secondary results are recorded in TECS under IO04. However, a modiﬁcation to IO04 will
have to be made to designate exams speciﬁcally for NEXUS or SENTRI. A query function to bring up
the designated NEXUS or SENTRI exams will also have to be developed.

OIT will have to commit personnel to develop the IO04 enhancements and OFO will have to fund the
design and production of the enhancement. Currently, OFO has no identiﬁed funding in FY 2004 or
2005 to complete these enhancements.

However, instructions for recording results of secondary referrals, which is standard operating
procedure, will be repeated in the updated SENTRI directive to the ﬁeld ofﬁces. When the SENTRI
referrals can be separated from overall port referrals, the analysis of results will have a better basis. The
directive will include guidance for modifying compliance referral rates based on local spikes in non-
compliance or national threat levels.

Due Date: Updated Directive: January 1, 2005; new program to separate SENTRI referrals from
others; December 31, 2006 (This is an estimated date. An actual date cannot be given until funding is
appropriated for this enhancement.)

Recommendation 8: Establish guidance to the POEs to allow for temporary modiﬁcation of compliance
inspection rates based on local threat level concerns.

Response: The SENTRI Directive will provide guidance for modifying compliance referrals and be
based on local or national threat level concerns.

Due Date: January 1, 2005

Recommendation 9: Establish policies and procedures that require CBP ofﬁcers to identify and record
SENTRI violations and the resulting penalties imposed that will alert CBP ofﬁcers to such information
when accessing GES.

Response: The problem here is to be able to compare violations in SENTRI with violations in other,
non-SENTRI lanes. This will give a clear picture of whether the SENTRI population is truly low-risk.



Page 38                    A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                                                                                                       Appendix B
                                                                                              Management Comments



The solution to this will come at the end of FY06, assuming that GES 5.0 is funded. All violations at a
port of entry, whether SENTRI or otherwise, are recorded in TECS. This is a CBP requirement. One of
the plans for GES 5.0 is to establish a very close connectivity to Treasury Enforcement Communication
System (TECS). One aspect of this connectivity is planned as the ability to track SENTRI violations in
TECS (by identifying them in the various types of records kept in TECS), and to have GES 5.0 capable
of ordering reports comparing the various types of violations (number/type/severity) occurring in
SENTRI and the non-SENTRI lanes at the port.

This ability will be available in GES 5.0. In the meantime, when a SENTRI vehicle is referred to
secondary, the applicants are queried by name in TECS. Any previous violation will show up in this
query. The SENTRI Directive will instruct ofﬁcers to follow this procedure for SENTRI, which is
standard operating procedure, (until GES is available for the purpose.)

Due Date: January 1, 2005 for Directive instructions on TECS; September 30, 2007 for new
capabilities for GES.

Recommendation 10: Develop a program to collect, track, and analyze SENTRI performance data to
evaluate SENTRI’s effectiveness and efﬁciency.

Response: The measurements by which to evaluate SENTRI performance will be reexamined and
selected to evaluate effectiveness as well as efﬁciency. The selected measurements will be collected
twice yearly and the program as a whole, as well as individual sites will be evaluated.

Due Date: January 1, 2005

Recommendation 11: Finalize guidance and standard operating procedures, which should include a
standardized training program, to ensure uniform and consistent program implementation at all SENTRI
land POEs.

Response: OFO will work with OIT to develop a National training program. The training program will
be in the form of a SENTRI User Guide available to all CBP ofﬁcers via the CBPnet.
OIT will have to commit personnel to develop the SENTRI User Guide and OFO will have to fund the
design and production of the user guide. Currently, OFO has no identiﬁed funding in FY 2004 or 2005
for the design and production of the user guide.

Due Date: December 31, 2006




           A Review of the Secure Electronic Network for Travelers Rapid Inspection Program                Page 39
Appendix B
Management Comments



Technical Comments

Page 5, 2nd paragraph: “that system administration functions delete records.” It should be noted that
enrollment records cannot be deleted and that only user access can be deleted.

Page 5, 3rd paragraph: “that GES generates a random compliance check. The compliance check is
generated by the validation system, not GES. GES merely stores a count of record crossings so that if a
traveler is not inspected for 50 crossings, they will then be referred to secondary.

Page 5, 3rd paragraph: “that GES generates a random compliance check.” The compliance check is
generated by the validation system, not GES. GES merely stores a count of record crossings so that if a
traveler is not inspected for 50 crossings, they will then be referred to secondary.

Page 6, 1st paragraph: “that license plate readers perform queries on vehicle and occupants.” Occupant
query is not performed, only vehicle.

Page 6, 2nd paragraph: Is incorrect. The original intent of the PortPASS card was that it be scanned so
that the driver would be required to stop for a long enough period that the inspector could assess all
occupants. This card swipe was later integrated into SENTRI as the trigger for opening the gate. Also,
the PortPASS card is not used as an identity document at all. The card does allow tracking of travelers
and vehicles along the northern border, a capability that will be implemented along the southern border
this summer.




Page 40                   A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                                                                                      Appendix C
                                                           OIG Evaluation of Management Comments



             We evaluated CBP’s written comments and have made changes to the draft report
             where deemed appropriate. Below is a summary of CBP’s written response to the
             report’s recommendations and our analysis of their response.

             Recommendations

             1. Provide a statement of program eligibility criteria that establishes a
             minimum and objective threshold for violations, arrests, and convictions
             to evaluate applicants seeking enrollment or an enrollment extension in
             SENTRI.

             CBP’s plan to modify the SENTRI Directive to include program eligibility criteria
             that establishes a minimum and objective threshold for violations, arrests, and
             convictions to evaluate applicants seeking enrollment or an enrollment extension
             in SENTRI is responsive to this recommendation. However, we are concerned
             that CBP does not intend to modify the SENTRI Directive until January 1, 2005.
             We believe the directive should be updated and distributed sooner. Please provide
             us with a copy of the revised SENTRI Directive by August 1, 2004.

             Recommendation 1 - Resolved - Open.

             2. Establish procedures for all SENTRI Enrollment Centers that deﬁne how
             CBP ofﬁcers resolve hits generated by background checks and how they
             document such resolution in the applicant ﬁles.

             CBP’s plan to establish procedures, in the SENTRI Directive, for all SENTRI
             Enrollment Centers that deﬁne how CBP ofﬁcers are to resolve hits generated by
             background checks and how they will document such resolution in the applicant
             ﬁles is responsive to this recommendation. We are concerned, however, that
             CBP does not intend to modify the SENTRI Directive until January 1, 2005. We
             believe the directive should be updated and distributed sooner. Please provide us
             with a copy of the revised SENTRI Directive by August 1, 2004.

             Recommendation 2 - Resolved - Open.

             3. Develop a uniform minimum economic threshold to establish employment
             or ﬁnancial solvency, and develop a uniform timeframe for documents
             requested to establish both employment or ﬁnancial solvency and residency.




A Review of the Secure Electronic Network for Travelers Rapid Inspection Program         Page 41
Appendix C
OIG Evaluation of Management Comments



                   CBP plans to deﬁne a uniform minimum economic threshold, in the SENTRI
                   Directive, to establish employment or ﬁnancial solvency and develop a uniform
                   timeframe for documents requested to establish employment, ﬁnancial solvency,
                   and residency. CBP agrees to establish proof of residency for SENTRI, but does
                   not wish to establish a ﬁnancial minimum for enrollment because they believe
                   ﬁnancial concerns should be addressed on a case-by-case basis. CBP’s plan is
                   responsive to this recommendation. We are concerned, however, that CBP does
                   not intend to modify the SENTRI Directive until January 1, 2005. We believe the
                   directive should be updated and distributed sooner. Please provide us with a copy
                   of the revised SENTRI Directive by August 1, 2004.

                   Recommendation 3 - Resolved - Open.

                   4. Establish a policy to require the separation of duties to ensure that the
                   CBP ofﬁcer conducting an initial interview and performing background
                   checks and application adjudication is not the same ofﬁcer approving the
                   application for ﬁnal enrollment.

                   CBP plans to establish, in the SENTRI Directive, a policy to require the
                   separation of duties to ensure, whenever possible, that the CBP ofﬁcer conducting
                   an initial interview and performing background checks and application
                   adjudication is not the same ofﬁcer approving the application for ﬁnal enrollment.

                   CBP commented that ofﬁcers assigned to POEs also work the SENTRI
                   Enrollment Centers. Because of this dual role there are a limited number of
                   ofﬁcers that can be pulled from port operations to work the centers. CBP can
                   direct the Enrollment Centers to use different ofﬁcers, but due to the enormous
                   volume of applicants, it may not always be possible to use two different ofﬁcers.
                   CBP further commented that it is desirable to have two ofﬁcers’ independent
                   assessment of each applicant’s eligibility, but this requirement places a higher
                   standard on enrollment in SENTRI than exists for granting U.S. visas, border
                   crossing cards, or U.S. citizenship.

                   CBP’s plan is responsive to this recommendation. We are concerned, however,
                   that CBP does not intend to modify the SENTRI Directive until January 1,
                   2005. We believe the directive should be updated and distributed sooner. CBP’s
                   assertion that our recommendation places a higher standard on enrollment
                   in SENTRI than exists for granting US visas, border crossing cards, or US
                   citizenship (and other beneﬁts), is not entirely correct. The processes for
                   granting these beneﬁts have other built in management control measures to



Page 42               A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                                                                                      Appendix C
                                                           OIG Evaluation of Management Comments



             avoid or identify procedural errors and fraud. For example, the granting of U.S.
             citizenship requires supervisory approval in certain cases, e.g., any applicant with
             potentially disqualifying criminal histories, before a ﬁnal decision is rendered. In
             addition, according to the January 2003 Citizenship and Immigration Services’
             Adjudicator’s Field Manual:

                 “…an integral part of any quality control program is supervisory
                 review. All Records and Adjudication Supervisors are required to
                 review and be familiar with the work performed by subordinates, and
                 to work on improving the quality of the work produced.”

             Further, all citizenship applications are subject to a re-veriﬁcation process to
             ensure that all steps in the processing of the citizenship application have been
             followed. Finally, the quality assurance (QA) staff at each ﬁeld ofﬁce performs
             QA inspections of citizenship applications to ensure proper procedures were
             followed.

             With regard to granting U.S. visas by Department of State consular ofﬁcers,
             three or more persons are usually involved in the application approval process.
             Supervisory consular ofﬁcers review the “visa refusal rate” of each consular
             ofﬁcer on a daily basis. This review will quickly identify a consular ofﬁcer
             that appears to be granting visas too liberally. In addition, supervisory consular
             ofﬁcers regularly survey approved visa applications to ensure compliance with
             procedures and law.

             A CBP process that requires supervisory review for certain speciﬁed SENTRI
             enrollment applications before a decision was made and a quality assurance
             review of all approved SENTRI enrollment applications would be responsive to
             the intent of our recommendation. Please provide us with a copy of the revised
             SENTRI Directive by August 1, 2004.

             Recommendation 4 - Resolved - Open.

             5. Implement policy, guidance, and procedures for routine and timely system
             queries to monitor continued eligibility of SENTRI program enrollees.

             CBP is in the process of developing a method to query each SENTRI participant
             at the time of border crossing. This will be a full person subject query, identical
             to queries done during secondary examination, and will look at all TECS records
             (CBP violators, terrorist watchlists, etc.) and will query NCIC for warrants. The



A Review of the Secure Electronic Network for Travelers Rapid Inspection Program          Page 43
Appendix C
OIG Evaluation of Management Comments



                   query is also intended to be automated and responsive to the CBP ofﬁcer at the
                   primary booth. CBP plans to implement this function by January 1, 2005. CBP’s
                   plan is responsive to this recommendation. Please provide us with documentation
                   that the full person subject query has been implemented by January 1, 2005.

                   Recommendation 5 - Resolved - Open.

                   6. Provide the OIG with the plan and schedule for achievement under which
                   GES, or any successor system, will establish real time connectivity with
                   TECS.

                   CBP commented that “integrated” means GES and TECS will be closely linked,
                   but there are no plans to make GES a part of TECS. During September 2004,
                   CBP plans an upgrade to the current GES version used for SENTRI. This
                   upgraded version, GES 4.0, will provide GES users with automatic query
                   capability in TECS and in other systems such as NCIC. CBP intends the
                   capability will enable a full series of queries to be performed automatically
                   on enrollment, at any set interval during the applicant’s membership, and will
                   incorporate the primary subject query capability. CBP plans to migrate GES 4.0
                   from an independent system of regional databases to a true global system.

                   CBP’s plan is responsive to this recommendation. Please provide us with
                   documentation that establishes the upgraded functionality of GES and its
                   migration from an independent system to a true global system by October 1, 2004.

                   Recommendation 6 - Resolved - Open.

                   7. Establish a program to document the results of all secondary inspections,
                   analyze the results, and use the analysis to establish appropriate compliance
                   inspection rates.

                   CBP responded that secondary results are recorded in TECS, but a modiﬁcation
                   would be needed to designate these secondary exams speciﬁcally for NEXUS or
                   SENTRI. CBP would need to develop, design, and produce the enhancements,
                   but no funding has been identiﬁed to complete these tasks. CBP intends to make
                   these modiﬁcations so that SENTRI referrals can be separated from overall port
                   referrals to secondary and they will have a better basis for an analysis of results by
                   December 31, 2006. By January 1, 2005, CBP plans to repeat the instructions in
                   the SENTRI Directive for recording results of secondary referrals. The directive




Page 44                A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
Appendix C
OIG Evaluation of Management Comments



                             will include guidance for modifying compliance referral rates based on local
                             spikes in non-compliance or national threat levels.

                             CBP’s plan is responsive to this recommendation. We are concerned, however,
                             that CBP does not intend to modify the SENTRI Directive until January 1, 2005.
                             We believe the directive should be updated and distributed sooner. From CBP’s
                             response, it is not clear when the directive will include guidance for modifying
                             compliance referral rates based on local spikes in non-compliance or national
                             threat levels. Please provide us with a copy of the revised SENTRI Directive by
                             August 1, 2004, and clarify when guidance for modifying compliance referral
                             rates will be included in the directive.

                             Recommendation 7 - Resolved - Open.

                             8. Establish guidance to the POEs to allow for temporary modiﬁcation of
                             compliance inspection rates based on local threat level concerns.

                             CBP’s plan to provide guidance for modifying compliance referrals that are based
                             on local or national threat level concerns is responsive to this recommendation.
                             We are concerned, however, that CBP does not intend to modify the SENTRI
                             Directive until January 1, 2005. We believe the directive should be updated
                             and distributed sooner. Please provide us with a copy of the revised SENTRI
                             Directive by August 1, 2004.

                             Recommendation 8 - Resolved - Open.

                             9. Establish policies and procedures that require CBP ofﬁcers to identify and
                             record SENTRI violations and the resulting penalties imposed that will alert
                             CBP ofﬁcers to such information when accessing GES.

                             CBP commented that recording all POE violations in TECS is a requirement,
                             whether SENTRI or otherwise, but there is a problem with comparing SENTRI
                             violations with violations in non-SENTRI lanes. CBP plans, by September 30,
                             2007, to establish a very close connectivity with TECS and the GES 5.0 version
                             if funding is provided. With this version, CBP would track SENTRI violations
                             in TECS and be capable of ordering reports comparing the number, type, and
                             severity of violations occurring in SENTRI lanes and non-SENTRI lanes. Having
                             this ability would provide a clearer picture of whether the SENTRI population is
                             truly low-risk.




                A Review of the Secure Electronic Network for Travelers Rapid Inspection Program       Page 45
                                                                                  Appendix C
                                                       OIG Evaluation of Management Comments



          Until GES is available for this purpose, when a SENTRI vehicle is referred
          to secondary, CBP ofﬁcers are querying the names of the applicants in TECS
          and any previous violation will show up in this query. CBP plans to update the
          SENTRI Directive, by January 2005, instructing ofﬁcers to follow this standard
          operating procedure for SENTRI.

          CBP’s plan is responsive to this recommendation. We are concerned, however,
          that CBP does not intend to modify the SENTRI Directive until January 1, 2005.
          We believe the directive should be updated and distributed sooner. Please provide
          us with a copy of the revised SENTRI Directive by August 1, 2004.

          Recommendation 9 - Resolved - Open.

          10. Develop a program to collect, track, and analyze SENTRI performance
          data to evaluate SENTRI’s effectiveness and efﬁciency.

          By January 1, 2005, CBP plans to reexamine the measurements used to evaluate
          SENTRI performance. The selected measurements will be collected twice a year
          to evaluate effectiveness and efﬁciency at individual sites and for the program as a
          whole. CBP’s plan is responsive to this recommendation. Please provide us with
          these measurements by January 1, 2005.

          Recommendation 10 - Resolved - Open.

          11. Finalize guidance and standard operating procedures, which should
          include a standardized training program, to ensure uniform and consistent
          program implementation at all SENTRI land POEs.

          CBP plans to ﬁnalize the SENTRI Directive by January 2005 and will develop a
          national training program in the form of a SENTRI User Guide available to all
          CBP ofﬁcers via the CBPnet. CBP stated that it does not have funding to develop
          or publish the SENTRI User Guide in its FY 2004 budget or in its FY 2005
          budget request. We view the capability to develop guidance, standard operating
          procedures, and training curriculum as explicit functions and the responsibility for
          management of any program. We are unable to understand why CBP maintains
          that it will require a special funding appropriation to develop the SENTRI User
          Guide.




Page 46       A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                                                                                      Appendix C
                                                           OIG Evaluation of Management Comments



             CBP’s plan is responsive to this recommendation. We are concerned, however,
             that CBP does not intend to update and complete the SENTRI Directive until
             January 1, 2005. We believe the directive should be updated and distributed
             sooner. Please provide us with a copy of the revised SENTRI Directive by August
             1, 2004.

             Recommendation 11 - Resolved - Open.




A Review of the Secure Electronic Network for Travelers Rapid Inspection Program         Page 47
Appendix D
Recommendations



Recommendations
                  1. Provide a statement of program eligibility criteria that establishes a minimum
                  and objective threshold for violations, arrests, and convictions to evaluate
                  applicants seeking enrollment or an enrollment extension in SENTRI.

                  2. Establish procedures for all SENTRI Enrollment Centers that deﬁne how CBP
                  ofﬁcers resolve hits generated by background checks and how they document
                  such resolution in the applicant ﬁles.

                  3. Develop a uniform minimum economic threshold to establish employment or
                  ﬁnancial solvency, and develop a uniform timeframe for documents requested to
                  establish both employment or ﬁnancial solvency and residency.

                  4. Establish a policy to require the separation of duties to ensure that the CBP
                  ofﬁcer conducting an initial interview and performing background checks and
                  application adjudication is not the same ofﬁcer approving the application for ﬁnal
                  enrollment.

                  5. Implement policy, guidance, and procedures for routine and timely system
                  queries to monitor continued eligibility of SENTRI program enrollees.

                  6. Provide the OIG with the plan and schedule for achievement under which
                  GES, or any successor system, will establish real time connectivity with TECS.

                  7. Establish a program to document the results of all secondary inspections,
                  analyze the results, and use the analysis to establish appropriate compliance
                  inspection rates.

                  8. Establish guidance to the POEs to allow for temporary modiﬁcation of
                  compliance inspection rates based on local threat level concerns.

                  9. Establish policies and procedures that require CBP ofﬁcers to identify and
                  record SENTRI violations and the resulting penalties imposed that will alert CBP
                  ofﬁcers to such information when accessing GES.

                  10. Develop a program to collect, track, and analyze SENTRI performance data
                  to evaluate SENTRI’s effectiveness and efﬁciency.

                  11. Finalize guidance and standard operating procedures, which should include
                  a standardized training program, to ensure uniform and consistent program
                  implementation at all SENTRI land POEs.



Page 48              A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
                                                                                            Appendix E
                                                                       Major Contributors to this Report



             David M. Hiles, Chief Inspector, Department of Homeland Security, Ofﬁce of
             Inspections, Evaluations, and Special Reviews

             Marcia Moxey Hodges, Senior Inspector, Department of Homeland Security,
             Ofﬁce of Inspections, Evaluations, and Special Reviews

             Vivian Dupuy, Inspector, Department of Homeland Security, Ofﬁce of
             Inspections, Evaluations, and Special Reviews

             Cathy Girouard, Inspector, Department of Homeland Security, Ofﬁce of
             Inspections, Evaluations, and Special Reviews




A Review of the Secure Electronic Network for Travelers Rapid Inspection Program                Page 49
Appendix F
Report Distribution



                      Department of Homeland Security
                      Chief of Staff
                      Deputy Secretary
                      Customs and Border Protection, Audit Liaison
                      DHS OIG Liaison
                      DHS Public Affairs

                      Ofﬁce of Management and Budget

                      Homeland Bureau Chief
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees as Appropriate




Page 50                  A Review of the Secure Electronic Network for Travelers Rapid Inspection Program
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4285, or visit the OIG web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations, call the OIG Hotline at 1-800-323-8603;
write to Department of Homeland Security, Washington, DC 20528, Attn: Ofﬁce of Inspector General,
Investigations Division – Hotline. The OIG seeks to protect the identity of each writer and caller.
